AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING 

 COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE 

            MICHIGAN STATE POLICE

       NORTHVILLE FORENSIC LABORATORY

            NORTHVILLE, MICHIGAN




           U.S. Department of Justice

         Office of the Inspector General

                   Audit Division



           Audit Report GR-50-13-008

                   May 2013

  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
              MICHIGAN STATE POLICE
         NORTHVILLE FORENSIC LABORATORY
              NORTHVILLE, MICHIGAN

                           EXECUTIVE SUMMARY
      The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of compliance with standards
governing Combined DNA Index System (CODIS) activities at the Michigan
State Police (MSP) Northville Forensic Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
electronically compare DNA profiles on a national level. The State DNA
Index System (SDIS) is used at the state level to serve as a state’s DNA



       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
database and contains DNA profiles from local laboratories and state
offenders. The Local DNA Index System (LDIS) is used by local laboratories.

OIG Audit Objectives

      Our audit generally covered the period from October 2010 through
October 2012. The objectives of our audit were to determine if: (1) the
Laboratory was in compliance with the NDIS participation requirements;
(2) the Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) the Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS.

      Our review determined the following:

      •	 The Laboratory complied with the NDIS participation requirements
         we reviewed. Specifically, we found that the Laboratory maintained
         adequate security over its facility and CODIS server, submitted the
         required background information on CODIS users to the FBI, kept
         records showing CODIS users were properly trained, and were
         timely in resolving the NDIS matches we reviewed.

      •	 The Laboratory complied with the Forensic QAS reviewed.
         Specifically, the Laboratory: (1) underwent QAS reviews within
         designated timeframes; (2) had procedures in place to ensure that
         access to the Laboratory was controlled and limited to authorized
         personnel; (3) followed protocols with regard to amplified samples
         being maintained in separate rooms from the evidence
         examination, DNA extraction, and PCR setup areas; and
         (4) adequately reviewed its contracted laboratories in accordance
         with the QAS requirements.

      •	 We reviewed 100 of the 3,251 forensic profiles the Laboratory had
         uploaded to NDIS from January 1, 2006, through September 17,
         2012. Of the 100 forensic profiles sampled, 1 was unallowable for
         inclusion in NDIS. As a result of our audit, the profile was deleted
         from NDIS. The remaining 99 profiles we reviewed were complete,
         accurate, and allowable for inclusion in NDIS.

      The results of our audit are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are detailed in Appendix I of the report, and the audit criteria
are detailed in Appendix II.




                                    - ii ­
      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable.




                                    - iii ­
                                TABLE OF CONTENTS



INTRODUCTION ................................................................................ 1

 Background........................................................................................1

 OIG Audit Objectives ...........................................................................1

 Legal Foundation for CODIS .................................................................1

 CODIS Structure .................................................................................3

 Laboratory Information........................................................................6


FINDINGS AND RECOMMENDATIONS................................................ 8

 I. Compliance with NDIS Participation Requirements ..............................8

 II. Compliance with Quality Assurance Standards................................. 10

 III. Suitability of Forensic DNA Profiles in CODIS Databases .................. 13


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 15


APPENDIX II - AUDIT CRITERIA ..................................................... 18

 NDIS Participation Requirements ........................................................ 18

 Quality Assurance Standards .............................................................. 18

 Office of the Inspector General Standards ............................................ 20


APPENDIX III - AUDITEE RESPONSE .............................................. 22


APPENDIX IV - FEDERAL BUREAU OF INVESTIGATION

              RESPONSE ............................................................. 23

                                 INTRODUCTION



      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Michigan State Police
(MSP) Northville Forensic Laboratory (Laboratory).

Background

       The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the
United States using forensic science and computer technology. The CODIS
program allows these laboratories to compare and match DNA profiles
electronically, thereby assisting law enforcement in solving crimes and
identifying missing or unidentified persons. 1 The FBI’s CODIS Unit manages
CODIS and is responsible for its use in fostering the exchange and
comparison of forensic DNA evidence.

OIG Audit Objectives

       Our audit generally covered the period from October 2010 through
October 2012. The objectives of our audit were to determine if: (1) the
Laboratory was in compliance with the National DNA Index System (NDIS)
participation requirements; (2) the Laboratory was in compliance with the
Quality Assurance Standards (QAS) issued by the FBI; and (3) the
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS. Appendix I contains a detailed
description of our audit objectives, scope, and methodology; Appendix II
contains the criteria used to conduct the audit.

Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 2

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.




      2
          42 U.S.C.A. § 14132 (2006).




                                        -2­
CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS), which serves as a state’s DNA database containing
DNA profiles from local laboratories within the state and state offenders; and
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                           NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                      Springfield, IL                Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office




                                              -3­
National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of laboratory-to­
laboratory contacts. NDIS contains the following eight searchable indices:

       •	   Convicted Offender Index contains profiles generated from persons
            convicted of qualifying offenses. 3

       •	   Arrestee Index is comprised of profiles developed from persons who
            have been arrested, indicted, or charged in an information with a
            crime.

       •	   Legal Index consists of profiles that are produced from DNA
            samples collected from persons under other applicable legal
            authorities. 4

       •	   Detainee Index contains profiles from non-U.S. persons detained
            under the authority of the United States and required by law to
            provide a DNA sample for analysis and entry into NDIS.

       •	   Forensic Index profiles originate from, and are associated with,
            evidence found at crime scenes.

       •	   Missing Person Index contains known DNA profiles of missing
            persons and deduced missing persons.

       •	   Unidentified Human (Remains) Index holds profiles from
            unidentified living individuals and the remains of unidentified
            deceased individuals. 5




       3
          The phrase “qualifying offenses” refers to local, state, or federal crimes that
require a person to provide a DNA sample in accordance with applicable laws.
       4
         An example of a Legal Index profile is one from a person found not guilty by
reason of insanity who is required by the relevant state law to provide a DNA sample.
       5
           An example of an Unidentified Human (Remains) Index profile from a living person
is a profile from a child or other individual who cannot or refuses to identify themselves.




                                             -4­
      •	   Relatives of Missing Person Index is comprised of DNA profiles
           generated from the biological relatives of individuals reported
           missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes, and
(2) identify missing and unidentified persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. (In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a


                                      -5­
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quality of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and
may not be searched at NDIS. 6 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases. Inaccurate
profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false positive leads, false negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

      The audited Laboratory participates in the CODIS program as a Local
DNA Index System Laboratory. The Laboratory began using DNA to process
criminal cases in 1997 and began using CODIS in 2002. The Laboratory
performs analysis on forensic samples, and our audit focused on the analysis
of forensic profiles. The Laboratory had contracts for the analysis of forensic
samples with Bode Technology, Incorporated (Bode); Orchid Cellmark,
Incorporated (Orchid Cellmark); Sorenson Forensics, LLC (Sorenson); and
Strand Analytical Laboratories (Strand). The contracts to analyze forensic
samples with Bode, Sorenson, and Strand run from February 1, 2012,
through January 31, 2015. The Laboratory did not renew its contract with
Orchid Cellmark and ended outsourcing forensic samples to Orchid Cellmark
in September 2011. As of October 2012, the Laboratory had outsourced
817 profiles to Bode and Orchid Cellmark between 2010 and 2012.7

     The Laboratory has been accredited by the American Society of Crime
Laboratory Directors (ASCLD) since 1984, and we verified that the


      6
          A “locus” is a specific location on a chromosome. The plural form of locus is loci.

      7
        The Laboratory did not outsource profiles to Sorenson or Strand for DNA analysis
 during the review period of the OIG audit.




                                             -6­
Laboratory received its latest accreditation on July 26, 2012. The
Laboratory’s next renewal is due July 25, 2017.




                                    -7­
                 FINDINGS AND RECOMMENDATIONS

       I.	 Compliance with NDIS Participation Requirements

       The Laboratory complied with the NDIS participation
       requirements that we reviewed.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

      We found that the Laboratory complied with the NDIS participation
requirements we reviewed. Specifically, we found that the Laboratory
maintained adequate security over its facility and CODIS server, submitted
the required background information on CODIS users to the FBI, kept
records showing CODIS users were properly trained, and was timely in
resolving the NDIS matches we reviewed. These results are described in
more detail below.

       •	 We interviewed the CODIS Administrator and conducted a thorough
          walk-through tour of the building and the Laboratory. We identified
          no significant concerns regarding the Laboratory’s procedures for
          securing the CODIS server or the Laboratory’s facilities. The CODIS
          server was located in a secured section of the building, and access
          to the server and terminals was restricted to CODIS users.

       •	 We interviewed the CODIS Administrator and determined that the
          Laboratory had instituted controls to ensure appropriate staff had
          access to the NDIS procedures manual and ensured personnel
          understood and abided by the manual. The NDIS procedures
          manual was available electronically on the MSP Dashboard. 8 Also,



       8
          The MSP dashboard is an internal website of the MSP’s Bureau of Science,
Technology, and Training that contains the Forensic Science Division’s policies, procedures,
audits, accreditations, training, and personnel information.




                                            -8­
        we interviewed two CODIS users and verified that they could access
        the NDIS procedures manual via the MSP’s online system.

     •	 We verified with the FBI that all Laboratory CODIS users completed
        the 2012 annual NDIS training.

     •	 The Laboratory is required to submit certain background data and
        security information to the FBI for each CODIS user. We confirmed
        that the Laboratory submitted the required information to the FBI.

     •	 We reviewed a judgmental sample of 10 NDIS matches from
        February 9, 2010, through September 4, 2012, and determined
        that each match was confirmed by the Laboratory in a timely
        manner, and the investigators were notified within 2 weeks of the
        match.

Conclusion

       We found the Laboratory to be in compliance with all areas of NDIS
participation requirements that we reviewed. We made no
recommendations concerning our review of the NDIS participation
requirements.




                                    -9­
       II. Compliance with Quality Assurance Standards

       The Laboratory complied with the Forensic Quality Assurance
       Standards we reviewed.

       During our audit, we considered the Forensic Quality Assurance
Standards (QAS) issued by the FBI. 9 These standards describe the quality
assurance requirements that the Laboratory must follow to ensure the
quality and integrity of the data it produces. We also assessed the two most
recent QAS reviews that the laboratory underwent. 10 The QAS we reviewed
are listed in Appendix II.

Results of the OIG Audit

       We found that the Laboratory complied with the Forensic QAS
reviewed. Specifically, we found that the Laboratory was in compliance with
the audit requirements, the Laboratory was a secured facility, the Laboratory
separated the various DNA processing steps, and the Laboratory adequately
reviewed its contractors. The results of our audit are described in more
detail below.

       •	 The Laboratory underwent a QAS review in each of the last
          2 calendar years as required by the QAS for laboratory reviews. In
          June 2010 and December 2011, the Laboratory underwent QAS
          reviews by external reviewers.

       •	 We reviewed the most recent QAS reports obtained from the MSP
          intranet website and confirmed that the FBI’s QAS Review
          Document was used to conduct the external reviews. In both
          reviews, there were findings and responses with corrective actions.
          The FBI cleared the Laboratory after each review. We contacted



       9
         Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective September 1, 2011.
       10
            The QAS require that laboratories undergo annual audits. Every other year, the
QAS require that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.




                                           - 10 ­
   the FBI and verified that all of the external team members had
   successfully completed the FBI QAS Review training course.

•	 The QAS require that the Laboratory submit external QAS review
   reports to the NDIS Custodian in the FBI within 30 days of the
   Laboratory receiving them. The external audit reports from
   June 2010 and December 2011 were both sent to the NDIS
   Custodian in the FBI within 30 days of the date the Laboratory
   received its copy of the report.

•	 Our review of the December 2011 external review report confirmed
   there were no repeat findings.

•	 Auditors who participated in the external reviews certified that they
   were free from conflicts of interest.

•	 We toured the Laboratory building and interviewed the CODIS
   Administrator, and we determined that the facility appeared to have
   adequate physical access controls in place and was adequately
   secured.

•	 We interviewed the CODIS Administrator and reviewed written
   policies and concluded that the Laboratory appeared to have
   adequate procedures in place to ensure the integrity of physical
   evidence received and tested at the laboratory.

•	 We interviewed the CODIS Administrator and reviewed policies and
   practices regarding the separation of samples during the analysis
   process. We determined that the policies and procedures appeared
   to be adequate. During our laboratory tour, we verified that within
   the DNA Laboratory, amplified DNA is generated, processed, and
   stored in individual rooms so that the analysis of samples moved
   from one room into another. As a result, the Laboratory kept
   evidence examination, DNA extraction, and Polymerase Chain
   Reaction (PCR) setup areas separate from one another.

•	 We interviewed the CODIS Administrator and discovered that the
   Laboratory does not maintain any evidentiary samples after
   analysis. According to the CODIS Administrator, any samples
   remaining after analysis are returned to the submitting agency. In
   addition, the CODIS Administrator explained that DNA extract
   samples were returned in dry format that could be reconstituted
   with a liquid buffer.



                              - 11 ­
      •	 We interviewed the CODIS Administrator and discovered that the
         Laboratory had contracts to outsource the analysis of forensic DNA
         samples with four private contractors (Bode, Orchid Cellmark,
         Sorenson, and Strand) during our review period. 11 We reviewed
         the contracts for the requirements of testing and reporting and
         determined that the requirements were appropriately documented
         and approved in accordance with the QAS for Forensic Laboratory
         testing. We also reviewed the last two QAS reviews and site visits
         for Bode and Cellmark. The site reviews determined that the
         laboratories were suitable for outsourcing DNA cases and were in
         compliance with the QAS audit requirements.

Conclusion

      We found that the Laboratory complied with the Forensic QAS
reviewed. Specifically, we found that the Laboratory: (1) underwent QAS
reviews within designated timeframes; (2) had procedures in place to ensure
that access to the Laboratory was controlled and limited to authorized
personnel; (3) followed protocols with regard to amplified samples being
maintained in separate rooms from the evidence examination, DNA
extraction, and PCR set-up areas; and (4) adequately reviewed its
contractors. We made no recommendations concerning our review of
Quality Assurance Standards.




      11
          The Laboratory did not renew the Orchid Cellmark contract, which ended
September 15, 2011. In addition, the Laboratory did not utilize Sorenson or Strand for DNA
analysis during the review period of the OIG audit.




                                         - 12 ­
     III. Suitability of Forensic DNA Profiles in CODIS Databases

      Of the 100 forensic profiles we reviewed, 99 profiles were
      complete, accurate, and allowable for inclusion in NDIS. We
      identified one profile that was not allowable for inclusion in NDIS
      because it could not be determined if the profile belonged to the
      victim or could be connected to the crime scene. Laboratory
      officials requested and received additional information from the
      requesting law enforcement agency and determined that the
      profile was not eligible for upload to NDIS. As a result, the
      Laboratory deleted the profile from NDIS.

       We reviewed a sample of the Laboratory’s forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. To test the completeness and accuracy of each profile, we
established standards that require a profile include all the loci for which the
analyst obtained results and that the values at each locus match those
identified during analysis. Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS Operational Procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection. However, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime. For
instance, a profile from an item seized from the suspect’s person, such as a
shirt, or that was in the possession of the suspect when collected, is
generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.

Results of the OIG Audit

      We selected a sample of 100 profiles out of the 3,251 forensic profiles
the Laboratory had uploaded to NDIS from January 1, 2006, through
September 17, 2012. Of the 100 forensic profiles sampled, we found that
99 profiles were complete, accurate, and allowable for upload to NDIS, while
1 profile was unallowable for upload to NDIS. The CODIS Administrator



                                    - 13 ­
agreed with our finding and deleted the profile from NDIS. The specific
exception is explained in more detail below.

      OIG sample profile number 20 was blood found on a knife blade that
was taken into evidence after a robbery. The file documentation indicated
that the Laboratory contacted the requesting law enforcement agency for
additional information regarding the justification of an NDIS upload at the
time the sample was submitted. Information in various case file documents
evidencing communication between the Laboratory and the requesting
agency indicated that the police did not seem certain a robbery had
occurred, and officials believed the creditability of the victim was in question.
According to information in the case file, the victim refused to provide an
elimination standard, and the victim had made false reports in the past. We
discussed this profile with Laboratory officials throughout our review. The
Laboratory officials stated they had requested and received additional
information from the requesting agency stating that it believed the robbery
in question was a false report. Therefore, the Laboratory determined that
the profile was not eligible for upload to NDIS, and it was deleted from
NDIS.

Conclusion

      Out of the 100 profiles we reviewed, 99 were complete, accurate, and
allowable for inclusion in NDIS, while 1 profile was unallowable for inclusion
in NDIS. The one profile was determined to be unallowable and was
therefore deleted. We made no recommendations concerning our review of
forensic DNA profiles.




                                     - 14 ­
                                                                  APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from October 2010 through
October 2012. The objectives of the audit were to determine if the:
(1) Laboratory was in compliance with the National DNA Index System
(NDIS) participation requirements; (2) Laboratory was in compliance with
the Quality Assurance Standards (QAS) issued by the FBI; and
(3) Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS. To accomplish the objectives
of the audit, we:

     •   Examined internal and external Laboratory QAS review reports and
         supporting documentation for corrective action taken, if any, to
         determine whether: (a) the Laboratory complied with the QAS,
         (b) repeat findings were identified, and (c) recommendations were
         adequately resolved.

         In accordance with the QAS, the internal and external laboratory
         review procedures are to address, at a minimum, a laboratory’s
         quality assurance program, organization and management, personnel
         qualifications, facilities, evidence control, validation of methods and
         procedures, analytical procedures, calibration and maintenance of
         instruments and equipment, proficiency testing of analysts, corrective
         action for discrepancies and errors, review of case files, reports,
         safety, and previous audits. The QAS require that internal and
         external reviews be performed by personnel who have successfully
         completed the FBI’s training course for conducting such reviews.

         We obtained evidence concerning: (1) the qualifications of the
         internal and external reviewers, and (2) the independence of the
         external reviewers.

     •	 Interviewed Laboratory officials to identify management control,
        Laboratory operational policies and procedures, Laboratory


                                     - 15 ­
        certifications or accreditations, and analytical information related to
        DNA profiles.

     •	 Toured the Laboratory to observe facility security measures as well as
        the procedures and controls related to the receipt, processing,
        analyzing, and storage of forensic evidence and convicted offender
        DNA samples.

     •	 Reviewed the Laboratory’s written policies and procedures related to
        conducting internal reviews, resolving review findings, expunging
        DNA profiles from NDIS, and resolving matches among DNA profiles
        in NDIS.

     •	 Reviewed supporting documentation for 10 of 200 NDIS matches to
        determine whether they were resolved in a timely manner. The
        Laboratory provided the universe of 200 NDIS matches on October 8,
        2012. The sample was judgmentally selected to include both case-
        to-case and case-to-offender matches. This non-statistical sample
        does not allow projection of the test results to all matches.

     •	 Reviewed supporting documentation to determine whether the
        Laboratory provided adequate vendor oversight.

     •	 Reviewed the case files for selected forensic DNA profiles to
        determine if the profiles were developed in accordance with the
        Forensic QAS and were complete, accurate, and allowable for
        inclusion in NDIS.

     •	 We obtained an electronic file identifying the specimen identification
        numbers of 3,251 searchable forensic profiles the Laboratory had
        uploaded to NDIS as of September 17, 2012. We limited our review
        to a sample of 100 profiles. This sample size was determined
        judgmentally because preliminary audit work determined that risk
        was not unacceptably high.

     •	 Using the judgmentally determined sample size, we employed a
        stratified sample design to randomly select a representative sample
        of profiles in our universe. However, since the sample size was
        judgmentally determined, the results obtained from testing this
        limited sample of profiles may not be projected to the universe of
        profiles from which the sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not


                                    - 16 ­
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                    - 17 ­
                                                                          APPENDIX II

                                AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the QAS, and the FBI Flowchart: A Guide to Determining
What is Allowable in the Forensic Index at NDIS. 13 However, we did not test
for compliance with elements that were not applicable to the Laboratory. In
addition, we established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of DNA profile matches to law
enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS requirements.

       •    NDIS Laboratories Procedure
       •    Quality Assurance Standards Audit Procedure
       •    NDIS Confirmation and Hit Dispositioning Procedure
       •    NDIS DNA Records Procedure
       •    DNA Data Acceptance Standards
       •    NDIS Searches Procedure
       •    NDIS Security Requirements Procedure

Quality Assurance Standards

     The FBI issued two sets of QAS: QAS for Forensic DNA Testing
Laboratories, effective September 1, 2011 (Forensic QAS); and QAS for DNA
Databasing Laboratories, effective September 1, 2011 (Offender QAS). The


       13
          The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
from the MOU and NDIS operational procedures. The flowchart is contained in the
2010 CODIS Administrator’s Handbook and has been provided to laboratories in forums
such as CODIS conferences.



                                          - 18 ­
Forensic QAS and the Offender QAS describe the quality assurance
requirements that the Laboratory should follow to ensure the quality and
integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

      •	 Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
         have a facility that is designed to ensure the integrity of the
         analyses and the evidence.

      •	 Evidence Control (Forensic QAS 7.1): The laboratory shall have and
         follow a documented evidence control system to ensure the integrity
         of physical evidence. Where possible, the laboratory shall retain or
         return a portion of the evidence sample or extract.

      •	 Sample Control (Offender QAS 7.1): The laboratory shall have and
         follow a documented sample inventory control system to ensure the
         integrity of the database and known samples.

      •	 Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
         laboratory shall monitor the analytical procedures using [appropriate]
         controls and standards.

      •	 Review (Forensic QAS 12.1): The laboratory shall conduct
         administrative and technical reviews of all case files and reports to
         ensure conclusions and supporting data are reasonable and within
         the constraints of scientific knowledge.

         (Offender QAS Standard 12.1): The laboratory shall have and follow
         written procedures for reviewing DNA records and DNA database
         information, including the resolution of database matches.

      •	 [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
         laboratory shall be audited annually in accordance with [the QAS].
         The annual audits shall occur every calendar year and shall be at
         least 6 months and no more than 18 months apart.

         At least once every 2 years, an external audit shall be conducted by
         an audit team comprised of qualified auditors from a second
         agency(ies) and having at least one team member who is or has


                                     - 19 ­
        been previously qualified in the laboratory’s current DNA
        technologies and platform.

     •	 Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A
        vendor laboratory performing forensic and database DNA analysis
        shall comply with these Standards and the accreditation requirements
        of federal law.

     •	 Forensic QAS 17.4: An NDIS participating laboratory shall have and
        follow a procedure to verify the integrity of the DNA data received
        through the performance of the technical review of DNA data from a
        vendor laboratory.

     •	 Offender QAS Standard 17.4: An NDIS participating laboratory shall
        have, follow, and document appropriate quality assurance procedures
        to verify the integrity of the data received from the vendor laboratory
        including, but not limited to, the following: Random reanalysis of
        database, known or casework reference samples; Inclusion of QC
        samples; and Performance of an on-site visit by an NDIS participating
        laboratory or multi-laboratory system outsourcing DNA sample(s) to
        a vendor laboratory or accepting ownership of DNA data from a
        vendor laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

     •	 Completeness of DNA Profiles: A profile must include each value
        returned at each locus for which the analyst obtained results. Our
        rationale for this standard is that the probability of a false match
        among DNA profiles is reduced as the number of loci included in a
        profile increases. A false match would require the unnecessary use
        of laboratory resources to refute the match.

     •	 Accuracy of DNA Profiles: The values at each locus of a profile
        must match those identified during analysis. Our rationale for this
        standard is that inaccurate profiles may: (1) preclude DNA profiles
        from being matched and, therefore, the potential to link convicted
        offenders to a crime or to link previously unrelated crimes to each
        other may be lost; or (2) result in a false match that would require
        the unnecessary use of laboratory resources to refute the match.




                                   - 20 ­
•	 Timely Notification of Law Enforcement When DNA Profile Matches
   Occur in NDIS: Laboratories should notify law enforcement
   personnel of NDIS matches within 2 weeks of the match
   confirmation date, unless there are extenuating circumstances.
   Our rationale for this standard is that untimely notification of law
   enforcement personnel may result in the suspected perpetrator
   committing additional, and possibly more egregious, crimes if the
   individual is not deceased or already incarcerated for the
   commission of other crimes.




                             - 21 ­
                                                              APPENDIX III

                         AUDITEE RESPONSE

      The Michigan State Police Northville Forensic Laboratory stated that it
reviewed the draft audit report and did not wish to provide a written
response to the report.




                                    - 22 ­
                                                                                    APPENDIX IV

       FEDERAL BUREAU OF INVESTIGATION RESPONSE

                                                            U.S. Department of Justice
                                                            Federal Bureau of Investigation


                                                            Washington, D.C. 20535-0001
                                                            May 3, 2013

Carol S. Taraszka, Regional Audit Manager
Chicago Regional Audit Office
Office of the Inspector General
500 West Madison Street, Suite 1121
Chicago, IL 60661-2590


Dear Ms. Taraszka:

                 Your memorandum to Director Mueller forwarding the draft audit report for the
  Michigan State Police Northville Forensic Laboratory, Northville, Michigan (Laboratory), has
  been referred to me for response.

                 Your draft report contained no recommendations relating to the Laboratory's
  compliance with the FBI’s Memorandum of Understanding and Quality Assurance Standards
  for DNA Testing Laboratories. The CODIS Unit reviewed the draft report and since it appears
  that the Laboratory is in compliance with NDIS participation requirements, the CODIS Unit
  has no significant comments to provide about the draft report.

                  Thank you for sharing the draft audit report with us. If you have any questions,
  please feel free to contact Jennifer C. Wendel, Chief of the CODIS Unit, at (703) 632-8315.

                                                    Sincerely,



                                                       Alice R. Isenberg, Ph.D.
                                                       Section Chief
                                                       Biometrics Analysis Section
                                                       FBI Laboratory




                                             - 23 ­
